No.
In The

^uprsme diaurt of tl|«
ShaRon D. Rose
Petitioner,
V,

Select Portfolio Servicing, Inc.; US Bancorp,
Respondents.
CERTIFICATE OF SERVICE
I, Ishan K. Bhabha, hereby certify that I am a member of the Bar of this Court,
and that I have this 19th day of February 2020, caused three copies of the Petition for a
Writ of Certiorari to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Michael D, Conner
Michael F. Hord, Jr.
HIRSCH & WESTHEIMER, P.C.
1415 Louisiana, 36th Floor
Houston, Texas 77002
(713) 220-9162
mconner@hirschwest.com
mhord@hirschwest.com

Ishan K. Bhabha

